<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                              
,                        [H.A.S.C. No. 115-83]

                      SPACE WARFIGHTING READINESS:

                POLICIES, AUTHORITIES, AND CAPABILITIES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 14, 2018


                                     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-461                     WASHINGTON : 2019                     
          

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                Sarah Mineiro, Professional Staff Member
                         Leonor Tomero, Counsel
                         Michael Gancio, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan, a Representative from California, Committee on 
  Armed Services.................................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Harrison, Todd, Director of Aerospace Security Project, Center 
  for Strategic and International Studies........................     6
Kehler, Gen C. Robert, USAF (Ret.), Former Commander, U.S. 
  Strategic Command..............................................     2
Loverro, Doug, Former Deputy Assistant Secretary of Defense for 
  Space Policy, Department of Defense............................     4

                                APPENDIX

Prepared Statements:

    Harrison, Todd...............................................    79
    Kehler, Gen C. Robert........................................    46
    Loverro, Doug................................................    58
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    44
    Thornberry, Hon. William M. ``Mac''..........................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    92
    Mr. Larsen...................................................    91
    Mr. Rogers...................................................    91
    Mr. Turner...................................................    91
  
.  
  SPACE WARFIGHTING READINESS: POLICIES, AUTHORITIES, AND CAPABILITIES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 14, 2018.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Last month, when Secretary Mattis testified on the new 
National Defense Strategy, he said, quote, ``Our competitive 
edge has eroded in every domain of warfare: air, land, sea, 
space, and cyber,'' end quote.
    That statement has two relevant points to today's hearing. 
First, space is a domain of warfare, not just an enabler. 
Second, we are falling behind where we should be when it comes 
to space. Today's hearing will discuss how we catch up.
    As we refocus our defense efforts on strategic rivals, it 
is clear that they are putting significant effort into space. I 
believe the American people still do not fully realize how 
dependent our country is on space, not just for military and 
intelligence purposes, but in our everyday lives as well. That 
dependence creates a vulnerability, which, like in the other 
domains, we must count on the American military to protect.
    This committee is focused a lot on readiness and rebuilding 
our military. When it comes to space, there are a number of 
questions that need answers. For example, where should we be 
making our investments? Are we attracting and developing the 
right kind of space warfighters? Perhaps most crucially to me, 
are we putting the appropriate intellectual effort into space 
as a warfighting domain? We look forward to the insights that 
our witnesses today can give us.
    Finally, I would point out that this committee has been 
very active in trying to prepare the military and the Nation 
for the challenges of space. We have streamlined Air Force 
acquisition authorities, eliminated red tape, empowered a 
single accountable organization for space forces within the Air 
Force, and empowered the Deputy Secretary of Defense to oversee 
Air Force space reform efforts among other things. But we will 
not relax our efforts. This topic is just too important.
    I would yield to Mrs. Davis as the acting ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 43.]

     STATEMENT OF HON. SUSAN DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you, Mr. Chairman. General Kehler, Mr. 
Loverro, and Mr. Harrison, we all welcome you, and we thank you 
for being here. We look forward to your insights on adapting 
space's contested domain and how we can protect our assets and 
deter a war in space.
    I ask unanimous consent to submit Mr. Smith's remarks for 
the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 44.]
    Mrs. Davis. Thank you.
    The Chairman. We appreciate each of you being here. We are 
joined by General Robert Kehler, former Commander, U.S. 
Strategic Command; Mr. Doug Loverro, former Deputy Assistant 
Secretary of Defense for Space Policy; and Mr. Todd Harrison, 
Director of the Aerospace Security Project for the Center for 
Strategic and International Studies. Obviously, more complete 
bios are in the materials on each of these gentlemen. Without 
objection, each of your full written statements will be made 
part of the record. And we look forward to your comments as 
well as your answers to our questions.
    General Kehler, the floor is yours.

    STATEMENT OF GEN C. ROBERT KEHLER, USAF (RET.), FORMER 
               COMMANDER, U.S. STRATEGIC COMMAND

    General Kehler. Thank you, and good morning, Mr. Chairman, 
Representative Davis, distinguished members of the committee. I 
am honored to be here with you today to present my views on 
space warfighting readiness. I am especially pleased to be here 
with my two long-time colleagues, and I want to thank the 
members of the committee for your leadership on these important 
matters. As a reminder, Mr. Chairman, the views I express today 
are mine. I am not here representing the Department of Defense 
or Strategic Command or the United States Air Force.
    Mr. Chairman, the United States is perilously close to 
losing the significant advantages that come from being the 
world's leading spacefaring Nation, and time is not on our 
side. Decades of dedicated investment in space have yielded 
important warfighting and intelligence collection benefits for 
the United States and our allies and partners. But our 
adversaries and our potential adversaries have noted these 
significant benefits and have moved aggressively to field 
forces that can challenge our space capabilities from the 
ground, through cyberspace, and in space.
    As always, deterrence is the preferred outcome, and our 
ability to deter a conflict that begins in or extends to space 
is based on our readiness to fight such a conflict. I believe 
classic deterrence theory applies to space. Adversaries will be 
deterred if they believe they cannot achieve their objectives, 
will suffer unacceptable consequences if they try, or both. 
This is not the first time the U.S. has had to consider 
challenges to our space capabilities, but today's problem is 
potentially far greater in impact.
    Given our dependence and that of our allies and partners on 
space, the loss of critical assets today could prove decisive 
to our ability to successfully prosecute a military campaign. 
As a result, the United States has to be prepared to plan and 
conduct complex operations in space that involve joint 
interagency and combined, or allied, capabilities and forces in 
the context of broader commercial, nongovernmental, and 
international actors and interests. Space operations must 
integrate seamlessly into multidomain operations. We should not 
be preparing to fight (and deter) an isolated ``space war'' as 
some headlines would suggest. Space is an integral component of 
our warfighting structure, and challenges to our space 
capabilities must be addressed within the context of that 
structure.
    As you pointed out, Mr. Chairman, there is a lot of work 
underway to address the shortfalls, much of it stimulated by 
your interest and that of Chairman Rogers and his subcommittee. 
So let me take just a moment to highlight a few areas that I 
believe deserve special attention.
    First, national leadership has to align on a comprehensive 
plan of action as well as the ends, ways, and means to 
implement such an action plan. The national security space 
enterprise exists within the overall national space enterprise, 
and its success is linked to the viability and vitality of that 
enterprise. The current National Security Strategy recognizes 
that unimpeded access to and use of space is a vital national 
interest and notes that the United States will respond to 
threats to our vital national interests in space ``at a time, 
place, manner, and domain of our choosing.'' To effectively 
deal with a conflict that begins or extends into space, this 
general policy has to be implemented in a manner that is 
helpful to commanders and operational planning and execution.
    Second, given the multiplicity of actors involved in 
today's military operations, including space, it is important 
to clarify the relationships and responsibilities among the 
commander of U.S. Strategic Command, other U.S. Government 
space operators, and other actors, like commercial space 
operators, to ensure that we have unity of effort. Regarding 
acquisition authorities, I think it is important to align 
authorities with service responsibilities and delegate those 
authorities to the lowest feasible level.
    Third, countering an adversary's efforts to deny our space 
capabilities begins with an operational concept, or CONOPS 
[concept of operations]. Bringing the ongoing space CONOPS work 
to conclusion and updating joint force CONOPS to account for 
degraded or denied space capabilities are complementary and 
high-priority activities.
    Next, in my view, today's joint warfighting structure is 
both appropriate and adequate to prepare for and fight a space-
related conflict. The commander of U.S. Strategic Command has 
the necessary responsibility and authority to organize his 
command for warfighting effectiveness, and, by the way, those 
changes are underway, to develop plans to conduct exercises to 
establish relationships over which he doesn't have command 
authorities, and, basically, to do the things necessary to make 
sure that we are prepared. This is the same process we use for 
the other domains and the other commands, and if we use that 
same process, that is going to help us ensure integration of 
space with other efforts.
    Finally, space and other forces have to be equipped and 
trained to fulfill their mission responsibilities in the face 
of determined adversary action against space assets. Capability 
architectures, not just space architectures, but capability 
architectures have to become more resilient and defendable, and 
all forces have to be prepared and equipped to operate in an 
environment that assumes space assets will be degraded. Rapid 
acquisition, aggressively leveraging commercial capabilities, 
better integration with allies and coalition partners, and 
realistic training all play a role in addressing these issues.
    Mr. Chairman, you asked for my perspective on the current 
readiness of U.S. forces to succeed and successfully operate in 
a conflict that begins in or extends to the space domain. In 
summary, we are not yet where we need to be, but I am 
encouraged by the focus, commitment, and sense of urgency I see 
from all parties. Fortunately, we are not starting from 
scratch. The young men and women that make up our space forces 
and their leaders provide the solid foundation we need to meet 
the challenge.
    Following Desert Storm, the United States Air Force and 
others made great progress in bringing space support to 
national leaders and the warfighters. Now it is time to shift 
from a mindset that presumes space superiority to a mindset 
prepared to gain and maintain space superiority as a first 
condition of providing that support. From acquisition to 
operational execution, the U.S. needs to field a force that is 
ready for space conflict.
    Thanks again for inviting me, and I look forward to your 
questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 46.]
    The Chairman. Thank you.
    Mr. Loverro.

STATEMENT OF DOUG LOVERRO, FORMER DEPUTY ASSISTANT SECRETARY OF 
        DEFENSE FOR SPACE POLICY, DEPARTMENT OF DEFENSE

    Mr. Loverro. Chairman Thornberry, Mrs. Davis, members of 
the subcommittee, I am pleased to be here today to join General 
Kehler and Mr. Harrison to talk to you about an issue that is 
critical for the Department of Defense [DOD] and for our Nation 
and, as you have already said, DOD space warfighting readiness.
    Space is vital to our national security. It underpins DOD 
capabilities worldwide at every level, from the engagement in 
humanitarian assistance, to conventional conflict, and up to 
and including nuclear war. As importantly, space provides a 
lifeblood to U.S. economic vitality empowering the lives of our 
citizens worldwide, and it increasingly represents one of those 
rare industrial sectors in which the U.S. continues to hold and 
expand its unqualified advantage.
    In all three space sectors, national security, civil, and 
commercial, the U.S. leads the world. Let's make no mistake 
about that. But while our leadership in both civil and 
commercial space remain secure, our leadership and our 
capabilities in national security sector are being actively and 
aggressively challenged just as General Kehler has stated.
    Our adversaries know that the U.S. military relies on space 
to empower its operations and to wield an overwhelming military 
advantage, and they don't like it. That understanding was 
succinctly stated by Chinese strategist Wang Hucheng two 
decades ago, when he wrote that ``for countries that can never 
win a war with the United States by using the methods of tanks 
and planes, attacking U.S. space system may be an irresistible 
and most tempting choice.'' His observation was not just idle 
speculation. It became the basis for Chinese and Russian 
strategy, which they have been working on ever since, and which 
they will soon bring to fruition.
    Understanding all this, the question posed by the hearing 
today, are U.S. space warfighting forces ready, becomes 
particularly pertinent to understand. Unfortunately, my answer 
is not that different from General Kehler's answer. No, we are 
not ready. Or more properly, I don't believe we are on the firm 
path to be ready. Before we discuss why, let me make two things 
emphatically clear. First and most critically, this is 
absolutely not an indictment of the incredible members of our 
military armed services and intelligence community charged with 
this responsibility. They stand ready to maintain U.S. space 
capabilities in every way humanly possible, given the tools at 
their disposal. It is the tools that are not up to the task.
    Second, no adversary should mistake that statement as an 
invitation to attack. The fact is that U.S. space forces are 
robust. And faced with any attack that could be mounted today, 
I am fully confident they will continue to provide the U.S. 
with the warfighting edge to assure an adversary's defeat. But 
the harsh reality is that our current ability to withstand an 
adversary attack is based not on our warfighting readiness but, 
rather, their lack of a fully developed and operationalized 
threat. If that threat did exist, then I feel the answer would 
be quite different.
    In your invitation to appear here today, you cited several 
elements that must be assessed to gauge our warfighting 
readiness. Those elements included policies, current and future 
capabilities, allied and commercial integration, and our 
organizational structure. In my written statement, I have 
addressed each one, and I would ask that those all be included 
in the record.
    Finally, before I close, let me add two more thoughts. 
First, to echo General Hyten and General Kehler have stated 
over and over again, deterrence and war do not occur in 
isolated domains, rather it is at the sum of our capabilities 
and actions across all domains that leads to deterrence during 
peace and victory during war. But the role that space plays in 
this equation is paramount, because losing space degrades not 
only our space capability, but degrades our capability in the 
three other terrestrial domains as well. Assuring space forces 
survive assures the ability of those terrestrial forces to 
succeed, and that leads to the deterrence we seek.
    Simultaneously, we must accept that no capable adversary 
will hesitate to exercise their sovereign ambition to eliminate 
the U.S. space advantage. Regardless of how ready our space 
forces are, that readiness will not deter a determined attack. 
Therefore, we must make certain that our space forces can 
withstand such an onslaught.
    Second, while the question of space warfighting readiness 
is made up of many elements, I want to elevate one of them 
above all others. That is, the human capital element, or, more 
specifically, the people. In my testimony, I have pointed to 
several areas where we need to reassess our plans, our budget, 
and our strategy. And I know that if we want to, we can reshape 
those plans and our budget and close the short-term readiness 
gap.
    But in the long term, we must face the fact that to remain 
ahead over the next half century, we are going to need to grow 
the kind of space leaders that can think doctrinally, 
technically, and operationally for space in the same way we 
grew those leaders in the 1930s and 1940s for air. We could 
have not done it for air from within the constraints of the 
pre-World War II Army personnel system. Likewise, we would not 
be able to do it for space from within the constraints of our 
first pre-war Air Force personnel system.
    In 1937, General Frank Andrews, for whom Andrews Air Force 
base is named, wrote, ``I don't believe any balanced plan to 
provide the Nation with an adequate, effective Air Force can be 
obtained without providing an organization individual to the 
needs of such an Air Force.'' The creation of the United States 
Air Force propelled changes in air power that moved our Air 
Force from the equal of its contemporary counterparts to a 
modern force that is, hands down, the best in the world.
    The same will be true for space. If we are to assure U.S. 
space warfighting readiness far into the future against the 
rising threats we see today and those that we will face 
tomorrow, we must establish, either within or outside the Air 
Force, an organization individual to those space needs.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Loverro can be found in the 
Appendix on page 58.]
    The Chairman. Thank you. Mr. Harrison.

  STATEMENT OF TODD HARRISON, DIRECTOR OF AEROSPACE SECURITY 
    PROJECT, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Harrison. Chairman Thornberry, Representative Davis, 
and members of the committee, I want to begin by thanking you 
for the opportunity to testify today on this important and 
timely topic. I also want to thank my CSIS [Center for 
Strategic and International Studies] colleagues who have 
contributed to our work in this area, especially Zack Cooper, 
Kaitlyn Johnson, and Thomas Roberts. While the thoughts I am 
sharing today draw from the work our team has done, the 
opinions I express are not intended to represent those of my 
colleagues or CSIS.
    The United States is critically dependent on space across 
the full spectrum of conflict from counterterrorism operations 
to high-end combat against a near-peer adversary. This 
dependence on space creates a vulnerability because our space 
systems are not protected across the full spectrum of threats. 
Conflict that begins or extends into space, particularly if it 
becomes kinetic, will not end well for anyone. Our primary 
focus should therefore be on deterring conflict in space, and I 
believe there are three main areas where we can do more to 
improve our deterrence posture and the readiness of our space 
forces.
    First, we need a clearer understanding and articulation of 
the thresholds for escalation in space, especially at the lower 
end of the spectrum of conflict. Ambiguous escalation 
thresholds can invite grey zone aggression in space as we are 
seeing occur in other domains today. Adversaries are probing at 
the seams and finding ways to advance their own ambitions 
without triggering direct, overt conflict with the United 
States. What is different about the space domain is that we 
have little history to draw upon or widely accepted norms of 
conduct to serve as reference points. It is, therefore, in our 
interest to work with international and commercial partners to 
establish sensible norms of conduct and to abide by them.
    Another complicating factor is that adversaries can use 
methods of attack against our space systems that are difficult 
to detect and attribute and may have reversible effects, such 
as jamming, lasing, and cyberattacks. It is nearly impossible 
to deter an attack if you cannot attribute the source of the 
attack, or know with confidence that the effects being 
experienced are, in fact, malicious. We cannot establish clear 
and credible thresholds without the ability to detect and 
attribute threats to our space systems in a timely manner.
    A second area where we should be focusing more effort is 
the development of innovative space capabilities. We are in the 
midst of a renaissance in commercial space, but it is difficult 
for the military to stay attuned to these advances if 
acquisition officers are rotating into space programs with 
little, if any, prior space experience. One potential remedy is 
for the Air Force to create a dedicated cadre of space 
acquisition professionals, both civilian and uniformed 
military, that are managed separately from the rest of the Air 
Force acquisition workforce. This would allow for more specific 
training, a deeper level of technical knowledge, and more 
relevant career experiences.
    The slow pace of the budgeting process is also a major 
roadblock to improving capabilities. Under the normal budget 
process, it takes about 2 years to move from having an idea to 
having funding to pursue that idea. Given the pace of 
innovation, especially in software and electronics, that is 
simply too long. One potential solution is to create something 
like a working capital fund for space innovation with greater 
flexibility and authorities. This would be particularly helpful 
for smaller prototyping and rapid response programs.
    A third and final area I believe needs more attention is 
the problem of communicating our thresholds and capabilities. 
While certain aspects of our national security space systems 
must remain secret to be effective, too often the U.S. military 
and intelligence community default to over-classification. 
Secrecy invites suspicion among our allies and partners and 
does little to deter our adversaries. The over-classification 
of information inhibits our ability to work with international 
partners and commercial firms, both of which can play an 
important role in improving the resilience of our space 
systems. And just as important, over-classification is 
effectively an overhead tax on all our space activities, adding 
complexity and time to everything we do.
    Another way to improve the communication of thresholds is 
to be more explicit with commercial space operators about how 
attacks on their systems will be treated. Without such clarity, 
commercial space operators may not be willing to accept the 
risk of doing business with the government in the event of a 
crisis. One approach to consider is an indemnification program 
for commercial satellite operators that will cover losses 
incurred due to a conflict in exchange for commitment by these 
firms to prioritize U.S. Government customers in a crisis.
    In conclusion, much remains to be done to improve the 
readiness of our national security space forces for the wide 
range of threats we face today. I commend the committee for 
focusing attention on these issues and holding the Department 
of Defense accountable for strengthening our deterrence posture 
in space.
    I look forward to answering your questions.
    [The prepared statement of Mr. Harrison can be found in the 
Appendix on page 79.]
    The Chairman. Thank you all.
    Mr. Loverro's statement really got my attention where he 
says not only are we not ready, we are not on the path to be 
ready. Now, this committee deals with lots of issues that we 
are not going to solve all of a sudden. But I think a lot of 
times, the question for us is are we on the right path? Are we 
getting there? Now, we may have differences sometimes about the 
sense of urgency, how quickly and so forth. But if we are not 
on the path to be ready, I think that is a pretty significant 
thing that should require us to rethink our path.
    General Kehler, do you agree that we are not on the path to 
be ready?
    General Kehler. I think it depends on what he means. I 
don't quite understand--so I am not going to speculate. I will 
just say, I am not aware of--I don't think I am aware, as an 
outsider now, of everything that is going on. What I am aware 
of, though, I think, is significant. And if we break this down 
and say are we doing the warfighting things that are necessary, 
plans, courses of action, establishing command relationships, 
all of those things, I believe those steps are underway. That 
is because we fight with combatant commanders, and we have a 
combatant commander focused on this. And so, A, I think the 
warfighting steps that are necessary are underway in order for 
us to have better plans and exercises and all the things that 
go with that.
    In terms of organizing, training, and equipping, I think 
that the--again, from what I have seen, I think that some 
significant decisions have been made in terms of architectures, 
et cetera. I am not clear that the acquisition has caught up 
with that, and I would question whether our acquisition 
processes are sufficient to do what needs to be done in the 
near term.
    Beyond that, I would not blanket say that we are not on the 
right pathway. But I respect Doug Loverro's views on this, and 
I would be interested in hearing more about why he thinks that. 
I might agree with him. But as a blanket statement, I don't.
    The Chairman. Okay. Mr. Harrison, do you have an opinion if 
we are on a path to be appropriately ready for warfighting in 
space?
    Mr. Harrison. I would have to lean more towards Mr. Loverro 
on this one. I would say that--to what General Kehler said, in 
terms of operations and our operational readiness today, I 
think we are making good progress, as far as I can tell as an 
outside observer. I think when it comes to long-term readiness, 
though, which depends much more on the space architectures that 
we are building and how we are thinking about operations in the 
future and how we are moving out towards acquiring the 
capabilities that we need, I don't think we are on the right 
track there. I think we have been stalled for several years 
now. For almost a decade, we have been stalled in transitioning 
to more resilient space architectures. And so in that sense, I 
think that we are not on a good path. We could do much better.
    The Chairman. Okay. Mr. Loverro, do you want to add to your 
statement?
    Mr. Loverro. Yes, Mr. Chairman, I would be pleased to.
    So, first of all, let me echo what both General Kehler and 
Mr. Harrison have said. We are working the warfighting plans. 
We are integrating space into those warfighting plans. That is 
active, ongoing. It began, really, under General Kehler, under 
his leadership, and has continued ever since. And, again, with 
the tools we have at hand, our warfighters and our war planners 
are doing the best they have.
    The problem we have is that, while we have an excellent 
vision for what we do need, and, in fact, General Hyten, who 
appeared before this committee earlier, last week, created what 
he called the space enterprise vision. And that vision is 
excellent and comprehensive. We can argue whether or not it is 
perfect, but it is a very good vision.
    But the plan that the Department of Defense submitted to 
this Congress, which is called the budget, doesn't reflect that 
vision. It does not reflect the elements necessary to make that 
vision happen. And I will point to three specific areas that 
are missing.
    Number one, the space enterprise vision includes extensive 
cooperation with allied and commercial, as both General Kehler 
and Mr. Harrison have said. And yet, there is zero investment 
in that commitment in the budget.
    Second, everybody in space understands that in order to 
operate in space effectively and to learn how to operate in 
space, you are going to need to exercise and exercise 
extensively. That requires test assets. That requires test 
infrastructures.
    In my written testimony, I speak to the Red Flag exercises 
that occur at Nellis Air Force Base. The Air Force spends a lot 
of money practicing operational tactics and doctrine. We do not 
have an investment that represents that in space.
    And lastly, the things that are in the budget represent 
more old school space architectures that are fundamentally 
almost impossible to assure the new space architectures that 
would lead towards assurance, and they are 10 years late. We 
have a SATCOM [satellite communications] jamming threat today. 
Today, if we went to war in the Pacific, our PACOM [U.S. 
Pacific Command] commander would be hard-pressed to 
communicate, and yet we have nothing on the books until about 
2027 to solve that problem for him. And by that time, the 
adversary will have gone through two or three generations of 
his capability. That is what I mean by not being on the path.
    The Chairman. Okay. I think there is a lot to follow up on, 
and I know members will want to.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you to all 
of you. In many ways, I think you just addressed part of that, 
Mr. Loverro, of, you know, where are the gaps. I mean, what is 
it specifically? And, Mr. Harrison, if you could, perhaps, pick 
up on that, whether it is the way the Pentagon is organized on 
some levels. We have talked about refining even what kind of 
unified or sub-command there is. What--are there authorities 
that are missing? Is it culture? Often it is. We know that 
there is a slow pace sometimes to move ahead in a risk-adverse 
culture.
    Can you help us define a little bit more of what is slowing 
that down and what, at this point, if, in fact, you are 
suggesting that we really haven't planned that for the budget, 
what is it that specifically could be done with some of those 
authorities?
    Mr. Harrison. Well, first, I think a lot of it is culture, 
that you have got a space community that many of the people 
grew up in an environment where space was considered to be more 
benign. I would argue it was never benign. There are always 
threats. The difference, though, was that we were more 
confident in our ability to deter threats in the past, and so 
we were willing to assume sanctuary. We had that posture for so 
long, I think we forgot that it was an assumption. And now, we 
are facing proliferation of threats, not just, you know, with 
adversaries like Russia and China that have pretty 
sophisticated space programs themselves, but all the way down 
to the level of nonstate actors that can use jamming equipment. 
They can acquire it. They can build it. They can operate it. 
And I think we have been very slow because of the culture they 
built up over time to respond to that.
    Part of it also is the acquisition culture. And, you know, 
I worked in this as a contractor, and I can tell you that, you 
know, we have built up institutions within the Air Force and 
the other services as well, to a lesser extent, though. We have 
built up institutions within our military, within our FFRDCs 
[federally funded research and development centers] that 
support the military, and even within our defense industry. And 
those institutions are centered around the types of 
capabilities that we needed in the past when deterrence was 
more assured.
    They are very slow to adjust. Those institutions are very 
slow to adjust to the threats that we are facing today. And so, 
I think that is where we need to light a fire under people.
    Mrs. Davis. Could you be just a little more specific about 
that?
    Mr. Harrison. So, for example, we got into a mindset of 
building highly aggregated, very expensive satellites in small 
numbers. And it has proven incredibly difficult over the past 
decade to get the Air Force and the specific program offices to 
break out of that mind set, that maybe we cannot be building 
these exquisite Battlestar Galactica satellites where we 
aggregate as many things on them as possible. There were good 
reasons to do that in the past. Those reasons don't exist 
anymore, and that is actually a vulnerability. We need to 
figure out how to build more resilient, more dispersed 
architectures. And I think people are just slow to make that 
transition because they grew up in an environment where it was 
all about aggregation.
    Mrs. Davis. Is there an alternative to that? Anybody want 
to--in that domain that you would suggest?
    General Kehler. Well, there are. First of all, I agree with 
what is being said. I think we are where we are not because 
people have slapped their forehead and said we don't know this, 
but for lots of reasons. Part of it has been priorities. When 
our priorities are elsewhere, and we see that not only in 
space, but we see that in the nuclear forces, we see that in 
other parts of the Department of Defense where our priorities 
have been elsewhere. I do think there are cultural issues. I do 
think there are other things that contribute to this. Resources 
and how many resources we have put to these issues, et cetera.
    I do think there is a cultural issue. I do think that we 
have the pieces in place to address those cultural issues. I 
think that we have been slow to try to address some of those. I 
would like to see us pull those pieces together, and I would 
like to see us give some of the current leadership more 
authority to move faster. And I think we must deal with our 
acquisition issues.
    Mrs. Davis. Yeah. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And I very much--and 
thank each of you for being here. I very much appreciate the 
focus that the Department of Defense is putting forth on this 
space area of responsibility, and I am particularly grateful 
for the leadership of the domain of space by Chairman Mike 
Rogers and Ranking Member Jim Cooper and their very visionary 
sponsorship of legislation in this field now has been adopted 
by President Donald Trump. So they are very effective 
individuals.
    As we continue to advance our own technologies, we have to 
understand and be prepared for the expansion of capabilities of 
our adversaries across all four orbits of outer space. And in 
particular, can you identify, the best you can, the 
capabilities and challenges that other nations have identified 
for their activities in space, beginning with General Kehler?
    General Kehler. Sir, I think that--at least what I have 
observed, both in uniform and now subsequent to that, is that 
our near-peer competitors--if you single out Russia and China 
in particular, they have developed strategies that are 
specifically intended to diminish our ability to project power, 
diminish our ability to have global awareness, to fracture us 
from our allies. All of the things that we see them doing at 
the strategic level have a space component to them. And they 
have been aggressively pursuing capabilities that allow them to 
execute that kind of a strategy. It is part of what we would 
talk with the Chinese about--talk about the Chinese in terms of 
anti-access/area denial strategies. With the Russians, we talk 
about their interest to dominate in the near abroad. They have 
escalation strategies that they believe involve space, et 
cetera.
    And so, I think we need to make sure we understand their 
strategic approach and how space fits into that in order to be 
able to counter it.
    Mr. Loverro. Congressman Wilson, let me add to what General 
Kehler said. And I agree exactly with what he said. Let me 
change the discussion less from the strategic side and more to 
the material side, if I might. And if you will permit me, I 
would like to just correct something that you mentioned, 
because it is a misconception almost everybody has.
    You talked about the four orbits that we have. Kepler 
defined an infinite number of orbits. We choose to use four. 
That is a foolish choice. Back in the 1960s, we launched 
satellites that today sit halfway between the Earth and the 
moon to observe nuclear tests on the face of the Earth. We knew 
how to do that in the 1960s. We understood that they were safer 
and more resilient that far away, and we could still conduct 
our mission.
    The adversary has seen how we operate in the four orbits 
that you talked about. They are ready to target every one of 
them, and they will target them in such a way that it will be 
very difficult for us to defend our capabilities. We are not 
constrained by gravity or physics to those placements. And yet 
culturally, we have a hard time moving away from them. And it 
is a very important strategic concept to understand. It is one 
of those blind spots that we don't allow our people to think 
about, because being in geosynchronous orbit for communications 
is convenient. But the Army doesn't march on the sides of ridge 
rather than in the valley because it is convenient. They march 
on the sides of ridge rather than the valley because it is more 
protected.
    For military capability, we may be convenient to be in 
geosynchronous orbit, but it is not militarily wise to be in 
geosynchronous orbit. And we can launch satellites in other 
orbits that are far harder for an adversary to attack, much 
more easily to attribute the attack once the attack occurs, and 
much more easy to go ahead and have a proliferated 
constellation of capability.
    Mr. Harrison. Thank you for the great question.
    You know, I think we are seeing our adversaries do several 
things. So first of all, they see the great advantage space 
provides us. And in some cases, they are trying to copy us and 
build similar space systems for themselves. We also see many of 
our adversaries trying to counter us and to blunt our advantage 
in space by developing counterspace weapons.
    And, you know, to build on what Mr. Loverro said, we 
shouldn't just think about counterspace weapons as kinetic ASAT 
[anti-satellite] weapons, missiles that go up, blow up a 
satellite, create a bunch of debris. Those are troubling, but 
we can attribute those very quickly. We know where they come 
from. And it is an overt act of war if someone does that.
    So I think we are better able to deter those types of 
threats and respond to them. What I am concerned about are the 
non-kinetic types of threats that we face in space.
    Mr. Wilson. Thank you very much, and I look forward to 
identifying who nonstate actors are, too.
    Thank you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I don't think anyone on the panel would say our space 
policy is a disaster and we don't know what we are doing, and 
so on. But it seems like we are at an inflection point a little 
bit where we need to move faster than we are to change. Sort of 
like the guy on The Ed Sullivan Show. He is spinning 17 plates 
at the same time trying to keep them all up and unable to 
prioritize, because you can't. You have to keep all of them up 
instead of running around trying to do this. And I feel that we 
are kind of at that inflection point in space policy, like we 
are moving around from plate to plate to keep them all up in 
order to move to that next step.
    And so I don't know how timely my question is, because I 
think one of the plates that is getting spun here has to do 
with the workforce side of it and what kind of workforce do we 
need in the future. But if we don't have an idea of policy, 
then we don't know what kind of workforce we need in space and 
what kind of warfighter we need for space.
    But having said that, maybe you can help answer some of 
those questions, like the kind of capabilities and 
qualifications that are needed now, and whether it is test 
pilots or space acquisition professionals or satellite 
communications specialists. Who do we need in our military and 
civilian side of the world and the Pentagon to implement 
whatever we are moving towards?
    General, have you given some thought to that over the last 
4 years and--3 years in retirement or----
    General Kehler. It might surprise you to know that, yes, I 
have. And especially the last couple of days, before coming 
here.
    And, by the way, all the way back to 2001, when then the 
Space Commission reported out that developing what they called 
the space cadre was going to be one of the critical things that 
needed to happen as we went forward. So if we were looking at 
the kind of space talent that we need in the future, I would 
say it is mixed. We are going to need people in uniforms who 
understand the basics and fundamentals of joint warfighting, 
while at the same time having expertise in the space domain and 
the technical requirements that go along with it. Think about 
submariners and submarines and the underwater environment here 
as a model for what we need. Those are warfighters, but they 
operate in a unique domain with unique platforms that can do 
things by themselves as well as operate with task forces, et 
cetera, et cetera. I think it is a good model for us to think 
about.
    We need civilians who work in the Department of Defense and 
come to work every day with the deeper technical expertise and 
savvy in order to be thinking about how do we bring commercial 
opportunity in as well as do government development. We need 
good researchers and development kind of people. We need that 
as an instrument as well. And we need an industry that can 
support what is needed in the future, and we need to leverage 
the talents and skills and entrepreneurial spirit that we find 
in the commercial world.
    So it is a blend of all those things, sir. I think that 
uniform people have a specific job to do here, and a skill set 
that is required that is a little different than those others, 
because they are the ones that actually have to go employ 
forces in combat. But it is a broader set of questions, and we 
need a team that covers this skill set. By the way, cyberspace 
is a huge part of all of this, and so we need people that are 
very smart there as well.
    Mr. Larsen. Mr. Loverro.
    Mr. Loverro. Yes. Thank you.
    So I want to echo again what General Kehler said and expand 
it.
    So what he described--when I listen to what he described, 
that describes a space-smart force for the Nation, a force made 
of civilians and military and the industrial base that supports 
it. Let me not talk about the industrial base as much as the 
folks that are inside the DOD.
    Space is a different kind of domain than air in the same 
way that undersea is a different domain than surface 
combatants. The Navy actually allows its three fundamental 
mission areas to grow separately. The career path for a 
submariner is different than the career path for a surface 
warrior is different than the career path for a naval aviator, 
as it should be. Those domains are different. They require 
different skills, different training, different experience.
    The same is true for space. Space is a different kind of 
domain than air. We don't need to move it out of the Air Force 
in order to go ahead and create the space-smart civilian and 
military force that we need. But we need to allow it to grow 
differently than the way we would grow air officers, because 
those are different skill sets, different domain experiences, 
different technical requirements, and different operational and 
tactical problems.
    Mr. Larsen. Yeah. Thank you.
    I will send a few more questions for the record.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I really appreciate 
you all being here. Talking about this is very important, raise 
awareness of the concerns that we have, the threats that we 
face. It is unfortunate, as Mr. Harrison talked about, that we 
have over-classification of a lot of this information. The 
American people need to know it, the Congress needs to know, 
which is why I am glad you are here, about these threats, our 
vulnerabilities, and how we have to get after this.
    I was also pleased to see on social media a few minutes ago 
that Secretary Wilson, Heather Wilson, is testifying before the 
House Appropriations Defense Subcommittee this morning. The 
first question that Chairman Granger gave her was about 
President Trump's call for a space force. She politely said, 
``We look forward to the conversation.''
    But I do look forward to this conversation. We are in my 
wheelhouse right now, and I appreciate all of you-all. You are 
all very sharp people.
    General Hyten at STRATCOM [U.S. Strategic Command] and 
General Harris at PACOM have told us that in just a relatively 
short period of time, both China and Russia have become our 
peers, not our near peers, our peers in space and, moreover, 
are on a trajectory to surpass our capabilities soon, because 
they are putting a larger percentage of their defense assets 
against this capability. And they have organizationally 
restructured.
    Do you share that opinion? Is that your view as well, that 
unless we do something dramatically different, that we are 
going to be surpassed by China and Russia in that domain?
    General Kehler. Yes.
    Mr. Rogers. Mr. Loverro.
    Mr. Loverro. Sir, I would hate to ever disagree with 
General Hyten; he is a good friend and I have known him a long 
time. I disagree that they are our peers. I do agree with him 
that they are on a path to surpass us if we don't go ahead and 
get our act together.
    Mr. Rogers. Mr. Harrison.
    Mr. Harrison. I think that Russia and China, we have to 
view them as differently, because they have different 
histories, so they are coming from different trajectories. 
Russia was a great space superpower back in the day under the 
Soviets. They degraded significantly after the fall of the 
Berlin Wall. But in recent years they have made a lot of 
efforts to regain a lot of their space capabilities, and they 
can still draw on that technical heritage that they had in the 
past, especially in terms of counterspace weapons that they had 
developed during the Cold War. They have that know-how. They 
have that expertise. It is not that difficult for them to field 
it again, and understand how to use it operationally.
    China is a different situation. They were not a great space 
power in the past. They are catching up. But I would agree with 
the sentiment that if they are not a peer today, they will be 
in the near future if both countries continue on the trajectory 
they are now.
    Mr. Rogers. And will surpass us if we don't make some 
changes.
    Mr. Harrison. If we don't make some changes, it would not 
be hard at all for them to surpass us.
    Mr. Rogers. And would you agree that we have become heavily 
dependent on space to fight and win wars?
    Mr. Harrison. Absolutely. As I said in my oral and written 
testimony, we are heavily dependent on space across the full 
spectrum of combat. It is not just, you know, nuclear war. It 
is not just high-end combat. It is--even peacetime presence 
activities, we would not be able to operate as effectively as 
we do today without space.
    Mr. Rogers. So, again, leading questions. So would you 
agree that not making dramatic changes to get after this is not 
an option?
    Mr. Harrison. I would agree it is not an option. We 
desperately need to make a change in course, and where we are 
headed today.
    Mr. Rogers. When you look at the Air Force budget in the 
last decade for space programs, would you say it represents, or 
reflects, that the Air Force views space as a priority?
    Mr. Harrison.
    Mr. Harrison. I think it reflects that we have stalled in 
our thinking. We have gotten frozen with fear, and we have not 
been able to make up our mind as an Air Force and as a nation 
on how we are going to move out to address these threats. So I 
think it has been stalled.
    Mr. Rogers. Mr. Loverro, same question. Does their budget 
reflect space being a priority?
    Mr. Loverro. I don't think so, sir. The DOD budget this 
last year went up by 16 percent. The space budget went up by 7 
percent.
    Mr. Rogers. Same question, General Kehler.
    General Kehler. So I was part of that. And what I would 
tell you is you have to be careful here, because the Air Force 
went through a time where almost every single space asset was 
recapitalized, from missile warning to GPS [Global Positioning 
System] to communications to the infrastructure that supports 
it. And so there was an investment time in the Air Force where 
that consumed a significant part of the Air Force's budget.
    Since then, no. And, again, I think acquisition problems, 
saving the programs of record has been a real problem. And, by 
the way, I would agree, to just put a finer point on it, yes, 
if we don't act, there will be consequences for us in the 
future with Russia and China. But I also agree that--or I do 
not agree that they are necessarily our peers right now.
    Mr. Rogers. Okay.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I will not let you off as easily as Chairman Rogers did. I 
would like each of you to answer two questions. Number one, 
what did the President mean yesterday when he said space force? 
And, number two, what should he have meant in his remarks?
    General Kehler. I notice my good colleagues were looking in 
my direction, sir.
    Well, I don't know what he meant, sir, to be honest with 
you. I am not an insider, and so I don't have the benefit of 
knowing sort of what conversations have been held with the 
Commander in Chief on this. So I really don't know.
    What should he have meant is really another question about 
what we should do. And I would tell you that while I think 
steps are necessary beyond what has been taken to date, to me, 
this is a matter of degree. If you are going to do something 
dramatic, then I think there is more than one model you could 
follow. And I would be urging that you carefully consider 
those, because there are pros and cons to each one of those 
models.
    When I commanded Air Force Space Command before I commanded 
U.S. Strategic Command, I thought I was commanding most of the 
Nation's military space forces. And so I think you have choices 
you can make here about what needs to happen next, and I would 
just urge you to be sensitive and thoughtful to what those are 
and what the pros and cons are of each.
    Mr. Loverro. So, first of all, I don't know what the 
President meant, although many people have blamed me for making 
him say it, so--but that is not the case.
    Let me tell you what I think he should have meant. We have 
a military service whose sole mission it is to prepare this 
Nation to go ahead and win in the sea. We have a military 
service whose sole purpose is to prepare this Nation to win on 
land. We have a military service in this Nation whose sole 
purpose is to win in the air, and to protect our interests in 
the air. And we now have at least a unified command whose sole 
purpose is to make sure we stay ahead and win in cyberspace. We 
lack that focus for space, one of our major five warfighting 
domains. And I may be biased, but I think one of the most 
important.
    That focus is necessary to create the long-term dynamic to 
keep us in the lead. And so when I think about a space force, I 
think about not just what is in Air Force Space Command today. 
I think about what is in the Missile Defense Agency. I think 
about the Army Space and Missile Defense Center. I think about 
the Naval Research Laboratory. I think about all of the 
components that create the ability to protect U.S. interests 
in, from, and through space. That should be our focus. What is 
the right organizational structure to create a service whose 
sole responsibility is to protect U.S. interests in, from, and 
through space. And I don't believe we have that today.
    Mr. Harrison. You know, as my fellow panelists here said, I 
am not sure exactly what he meant. I saw the video, as I am 
sure you did as well. It appeared that he was thinking kind of 
off the cuff, and he had not looked into the history. I would 
not presume that the President had read things like the Allard 
Commission Report, or the Rumsfeld Commission Report, that 
looked at these issues in the past.
    This is something that has been an ongoing discussion for 
at least two decades. I think what he should have meant, and 
there is some hints of this in his remarks, is that given the 
increased emphasis we are placing on space, and the investments 
that are going into space, that we need to look at reorganizing 
our military around this domain, so we can operate more 
effectively in this domain.
    And, you know, as I was sitting here thinking about this, I 
looked right here in front of us is a little plaque with 
Article I, Section 8 of the Constitution. And as you read that, 
you know, it gives Congress the power to, you know, raise an 
Army and to maintain a Navy. It doesn't mention air. Of course, 
there was no air domain at that time. And, you know, that is 
just proof that we have to evolve our organizations. We have to 
evolve our thinking over time. And I think that we have reached 
that point now with space as a fourth physical domain. And then 
thinking of cyber as well as a fifth virtual domain, and that 
it is time that we rethink some of our major organizational 
structures around that.
    So I think that is what he should have meant and, you know, 
should then lead to deeper discussion about how do we do that 
and how do we make this transition.
    The Chairman. That plaque also reminds us what our job is 
in this, and sometimes it is easy for us to just look to the 
Pentagon to give us the answers. But that is not what the 
Constitution says.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you. As China and Russia get close to 
where we are now and/or exceed us, at what point is an 
opportunity for a Geneva Convention-like agreement as to how we 
would conduct ourselves in a fight like this, and then should 
that go forward, who starts it and how does that work? And then 
how would we try to leak in nonstate actors who could also have 
access to certain things that could be disruptive.
    So is there a Geneva Convention codicil in the works 
somewhere?
    Mr. Loverro. Sir, I think the need for that is absolutely 
clear. Let me point back to January 2007 when the Chinese shot 
their own satellite and created thousands of pieces of debris 
in space. We all remember that date.
    When that happened, the entire world said that is 
unacceptable. Creating that much debris in space is 
unacceptable. And even the Chinese admitted it was 
unacceptable, because they have never done it again.
    I believe that we should be negotiating with our 
adversaries, that there is some kind of space weapons, just 
like chemical weapons on the land, or just like bombardment 
from the air. You know, these kind of weapons are not 
acceptable. We know you are going to attack our space stuff. 
Fine. Go for it. But let's not go ahead and create 
indiscriminate harm to other actors and to the environment 
while we do it.
    I actually believe we could get that agreement with China, 
probably with Russia after China, and then with the 
international community. I think that that would be something 
that is in our national interest and their national interest to 
do.
    General Kehler. And, sir, I agree that it is in our 
national interest, I think, to agree, in the international 
community, on some kind of, what we called for a long time, 
rules of the road. I think if you take other steps beyond that 
and start talking about formal arms control agreements and that 
sort of thing, those are very difficult. For a long time, we 
have struggled with just the concept of what constitutes a 
weapon in space. You can take almost anything that is in space 
today and use it as a weapon against something else that is in 
space if you have enough fuel to do it.
    So I think there are--it would certainly benefit. It would 
help our commanders and our policy makers understand things 
like what constitutes hostile intent? What constitutes a 
hostile act? How do you know if someone is threatening you or 
not? I think this is going to be even harder when commercial 
interests go to orbit to do close-proximity servicing, for 
example. Those are going to be difficult challenges for us, and 
there needs to be some structure around how we operate in 
space.
    Mr. Conaway. Mr. Harrison.
    Mr. Harrison. I would just echo those comments, but also 
add that, you know, in the long-term, we do need something 
through United Nations, Geneva Convention. The things we need 
to, you know, get clarified are what is considered a combatant 
versus a noncombatant in space, when these are all, for 
military purposes, are unmanned platforms. What is a 
proportionate response to an attack in space? You know, we 
reserve the right to respond at the time, place, and domain of 
our choosing. If someone does something against a critical U.S. 
satellite, is it proportionate to do something on the ground 
that causes the direct loss of life. You know, I think those 
are questions we need to search through.
    In the near term, though, I think what we can do is have 
discussions with our allies and our partners about norms of 
conduct. You know, what are the rules of the road? What are the 
right ways to act? And if we set those and start following them 
ourselves, which I don't think would be hard to do, and get our 
allies and partners on board as well, even if adversaries do 
not want to follow those, we at least have some basis of 
comparison to look at their actions. And it is complicated in 
space because of orbital mechanics. But, you know, simple 
things like how close of an approach to another uncooperating 
satellite is too close. It can get very complicated. But I 
think we need to work down through those questions and try to 
come to some sort of a consensus, at least within the United 
States.
    Mr. Conaway. Thank you.
    General, real quickly. The uniformed space corps, uniformed 
space fighter, warfighter, is that group big enough to provide 
career longevity, career advancement, career challenges that 
would allow that to not be a dead-end career path?
    General Kehler. I don't think so. I think that developing 
the uniformed piece of this is an important question as we go 
forward. I think that, you know, the services across the board 
have said they need to be bigger for lots of reasons. I think 
space falls into that category. I think that there are more 
uniformed people that are needed. And I think that, you know, 
the points here earlier about making sure that there is a 
career progression, I think that there are models out there 
that we can use and we can follow. And again, a lot of the 
pieces are in place; we just need to go do it.
    Mr. Conaway. Thank you.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. General 
Kehler and Mr. Loverro and Mr. Harrison, thank you all for 
being here.
    General, the United States Strategic Command has identified 
an urgent need to rapidly reconstitute and replenish critical 
space capabilities to preserve continuity of operational 
capability. So can you please speak to some of the investments 
in low-cost responsive launch options that you would recommend 
the Department pursue to fulfill this need?
    General Kehler. I would say, first of all, that, in general 
terms, the Department hasn't invested enough in the entire 
concept of operationally responsive space. How much should be 
invested in each of the parts, I think, is getting a pretty 
thorough review right now. What encourages me the most now is 
the launch developments that have occurred in the commercial 
world, because I think that the commercial activity here 
promises to be a game changer and in many ways has been a game 
changer to this point.
    So I would be looking to leverage commercial opportunities 
and low-cost commercial opportunities, first, before I went 
down the pathway of investing a lot more government money in 
government-sponsored kind of new launch capabilities, small 
launch capabilities. So that would be part one.
    Part two, what is done in operationally responsive space 
concepts needs to fit in with what my colleagues were talking 
about earlier with the new architecture approach to what we do 
on orbit. Things that are being talked about now inside the 
Department, inside the Air Force, inside U.S. Strategic 
Command, different architectural approaches, whether those are 
smaller payloads that are replenished sooner, whether it is 
ridesharing, whether it is leveraging commercial, all of those 
things that need to go into an overall architecture approach 
that I think then helps define where we need to invest, what we 
need to invest in.
    In my experience in the past, one of the issues has been 
you can deploy and buy small satellites; it is what you put on 
them that turns out to be the long pole in the tent, the 
payloads that go on them. So I think there is investment that 
is required. I don't know exactly where we should invest, but I 
would be careful about investing in small launch vehicles 
because I think commercial is going to get us there and in many 
cases has taken us there now.
    Ms. Bordallo. Thank you. My second question is, today, 
nearly all U.S. national security satellites are launched from 
fixed coastal U.S. launch sites that could easily be disrupted. 
So these fixed sites also provide predictable locations from 
which adversaries could glean clues to discern U.S. 
capabilities and other gaps. DOE [Department of Energy] 
developed more diverse launch sites using new commercial 
capabilities to address these weaknesses and support rapid, 
responsive, and resilient polar launch capability.
    General Kehler. There have been alternative launch sites in 
existence for quite some time. For lots of reasons, they 
haven't really taken hold. I think this is another opportunity 
where I would like to see commercial enterprise take us there. 
But I agree with you, we ought to be more diversified in 
getting to orbit, whether that is leveraging allied activities 
as well or making sure that we are leveraging where commercial 
is going, to include alternative means of launching, maybe 
taking things aloft on aircraft, et cetera. And a lot of those 
are underway right now in various commercial settings.
    Ms. Bordallo. Yes. Well, General, I represent Guam, and 
there have been interested individuals out there trying to 
launch--doing their launch operations and have visited our Air 
Force and also our commercial airport--our international Guam 
airport.
    General Kehler. SpaceX was on Kwajalein for a little while 
as well. And, you know, we have done launches from other 
places. I think it is a matter of--I would like to see 
commercial take us there, and my colleagues have views on this 
as well, I know.
    Ms. Bordallo. Would anyone like to add to that?
    Mr. Loverro. Let me go ahead and add to that, if I could, 
ma'am. So first of all, I absolutely agree we need more 
diversity in launch, although I always try to remind us that 
launch is part of getting the mission started, not the mission 
in and of itself.
    I am very excited by what I see in the commercial world in 
terms of small launch, whether that is Rocket Lab launching 
from New Zealand, Virgin Orbit with their plane that can launch 
from anywhere in the world, Stratolaunch trying to do the same 
kind of thing. These are commercial capabilities that we don't 
need to invest in, but we need to embrace.
    Ms. Bordallo. Right.
    Mr. Loverro. And that is the key that we have to 
understand. There is never going to be a time where we have the 
luxury of unlimited resources. We need to embrace these 
commercial and allied capabilities so that we can invest in the 
pointy end of the spear, not on the back end of the spear.
    Ms. Bordallo. Thank you. Mr. Chairman, I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And thank all of you 
for the service that you give to our country in various ways. I 
sure appreciate it. I think we all do.
    Mr. Loverro, you said in your written testimony, quote, ``a 
key element of any future space strategy is the ability to 
operationally test that strategy under real life conditions,'' 
end quote. And you use an example that after losses in Vietnam, 
the Air Force created Red Flag, and that helped staunch the 
flow of losses. And we were talking about this yesterday.
    Could you follow on that? And because Representative 
Bordallo has mentioned her district, I will mention my 
district. We have had some Space Flag exercises in Colorado 
Springs, and I think that is a good precedent here for this 
kind of testing that we need to do. Could you elaborate on 
that, please?
    Mr. Loverro. Absolutely, sir, I would be pleased to. So, 
you know, when we talk about testing and training environments 
within the DOD, we can mean anything from what is called the 
tabletop exercise, where nothing is actually happening other 
than written pieces of paper going back and forth, to full Red 
Flag exercises where we have people who are simulating 
aggressor tactics and aggressor-like aircraft against our own 
forces and actually trying to win the fight. And everywhere in 
between: simulators, computer-driven exercises.
    In the air world, in the sea world, in the land world, we 
cover that entire gamut because we understand to actually 
become an expert in that kind of warfighting, you must cover 
that entire gamut.
    In space, we are limited to computer simulations and 
tabletop exercises. Those are important, but insufficient. We 
need an investment in on-orbit assets that our warfighters can 
use to simulate tactics in space, try out the plans they have 
developed. Did that work? Were we able to observe the adversary 
movement in the timeliness and thoroughness that we thought we 
would be able to? You can't know that from a computer.
    The computer will always tell you, yes, you observed it, 
because it is programmed to do that. You have to try that in 
space with real assets. That is a critical investment area, we 
know it is a critical investment area, but we are not investing 
there because it is, quite frankly, expensive and we are 
spending money elsewhere. As Mr. Harrison has suggested and I 
suggested and I think General Kehler would agree, we can allow 
the commercial world to pay for a lot of the things that we are 
investing in ourselves so we can invest in things that the 
commercial world won't invest in, like test assets that we are 
going to fight in space. Those are a peculiar military need 
that we should be focused on.
    Mr. Lamborn. General Kehler or Mr. Harrison, can you add 
anything about the need for more space warfighting training?
    General Kehler. You need to take a page from every other 
domain, every other military service. If you want to have an 
effective warfighting force, you have to train, educate, 
exercise, test, simulate, do all those things. And for lots--
again, for lots of reasons, over the years, we have 
shortchanged space on many of those things.
    I will tell you that space is part of Red Flag. If you were 
to go to Red Flag, space is part of Red Flag. It is different 
to hold a space Red Flag. It is a little bit different focus. 
We have done one of those, I am told, here fairly recently. The 
mechanisms are in place to do these things. I think it is a 
matter of focus and attention, and at some level, it is a 
matter of resources. If you want to have simulators and 
training and test assets and those kind of things, it costs 
money.
    Mr. Harrison. I would add that one thing that we should try 
to do differently in space and do better than we do in the 
other domains is how we measure readiness. And, you know, our 
traditional approach to readiness is not serving us well 
because many of our measures are based on the inputs. Do we 
have enough people? Do we have enough people of the right 
training level? You know, how much training did we do in the 
past year? And it is more of a checkbox approach to get your 
swords ratings, then go into the readiness system, that then 
get aggregated and presented to Congress. That is not 
sufficient in the other domains; it is certainly not sufficient 
in space.
    If you want an adequate picture of readiness, you need to 
do these exercises, you need to do these tests, and you need to 
measure performance. So, for example, as I said in my 
testimony, the ability to quickly detect and attribute 
different types of attack is important. Let's test that. Let's 
use whatever resources we have. Let's have a simulated attack. 
Let's see how long it takes to detect it and to attribute it to 
the right source. Let's measure those things and let's report 
those as measures of readiness, not did we do the training or 
not or did we have, you know, the certain number of people.
    Mr. Lamborn. Well, let's all move forward together on 
better and more advanced space warfighting training.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair. Thank you all for being 
here today.
    The Department of Defense is conducting a study known as 
analysis of alternatives [AOA] on how to best meet the 
exponentially increasing demand for satellite communications 
connectivity for military and government users. Even if the DOD 
completes its study on time, the timeline for providing 
increased satellite capacity would be no earlier than the late 
2020s, resulting in a gap of time where military demand for 
connectivity could exceed supply. This means our military could 
face diminished communications capability while they are 
executing critical missions if the DOD does not procure 
additional space craft or capability.
    The current threat calls for more anti-jam capable 
satellites to provide assured communications for the warfighter 
in contested space. How should the Air Force plan to meet this 
need now, to all three of you?
    General Kehler. Sir, the very best architecture studies and 
the very best pathway to the future will continue to run 
headlong into an acquisition process that doesn't allow you to 
get there before the late 2020s or the early 2030s, unless we 
add some rapid acquisition capabilities to space, which I think 
is an urgent need to have happen.
    There needs to be an architecture that--an updated 
architecture was mentioned here by the panel before, that talks 
about communications that involves high-end protected 
communications that the government will need to do for itself, 
followed by the commercial communications that can be leveraged 
for government use, of which there are a lot of options out 
there and more coming every day. And then we need to change the 
model for how we go buy it.
    Your point about an analysis of alternatives that takes 
years to complete and posits answers way in the future is not 
going to be acceptable. It is going to put us way behind. And I 
think it is one of the urgent issues that needs to get 
addressed in terms of what have we got to do to help ourselves 
out of this problem we have with space.
    Mr. Loverro. So let me add two thoughts to what General 
Kehler said, and one that may surprise members of this 
committee. I actually, quite frankly, recoil when I hear the 
fact that the problem is the acquisition problem. I think that 
is a shorthand for saying the real problem is the decision 
process of which the acquisition process is part.
    We have to decide what to buy. Now, don't get me wrong, we 
are slow at buying things using normal defense planning, and we 
should be faster at that. But we canceled the TSAT 
[Transformational Satellite Communications System] program, the 
anti-jam capable system that we intended to build in the early 
part of this century. We canceled it in 2009. We have yet to 
decide what to replace it with, much less begin the program. 
That is not an acquisition problem; that is a decision problem. 
And that decision problem exists because there are too many 
people who can have an opinion in that debate.
    Regardless of AOAs, regardless of all the thinking, the Air 
Force doesn't get to make that decision themselves. I think if 
they did, the Air Force would have decided. I can't tell you if 
they would have decided right or wrong, but I can tell you they 
would have decided, a program would be underway. We would all 
be worried about how long the program was taking, but the 
program would already be there. We have a decision process 
within DOD because we have not centralized thinking about space 
in the same way we centralize thinking about air, land, and 
sea.
    So the second question, how do we get there faster? You 
know, we have--there are 450 commercial communication 
satellites in the geosynchronous belt. There are going to be, 
in the next 10 years, upwards of 4,000 to 5,000 communication 
satellites in the Earth's orbit belt. We should be actively 
investing in those capabilities today.
    In fact, the official Air Force plan is to not buy another 
communication satellite like the wideband global satellite but 
rather to invest in those commercial companies to have them 
field the capabilities we need in terms of anti-jam. And yet, 
that program has not been funded adequately since the Air Force 
first presented it over 7 years ago. That program would have 
already yielded significant capability in space and we wouldn't 
need an AOA to come to the conclusion that knowledgeable people 
already have that that is the best way to get that.
    We should be investing today in cyber hardening of all of 
these LEO [low Earth orbit] constellations so that we can use 
them for our warfighters, because they are going to be up there 
in 4 or 5 years and our warfighters will not be able to depend 
upon them because their ground systems will not have the cyber 
protections necessary that we could pay for by pennies on the 
dollar as these systems are developed. Those kind of decisions 
are decision problems--I don't like to call them acquisition 
problems, because they are a decision to act. They will be an 
acquisition problem beyond that. Let's decide to act first, and 
that is where we have really fallen down is in deciding to act.
    Mr. Carbajal. Thank you. I yield back, Mr. Chair.
    The Chairman. Mr. Harrison, is there something briefly you 
want to add to this question?
    Mr. Harrison. I would briefly add to that, that part of it 
is that we have built up institutions around certain mission 
areas and doing missions in a certain way. You know, we have a 
wide--we have had a wideband program office, the Space and 
Missile Systems Center. Their job has historically been to 
acquire wideband satellites. Now we are looking at an era where 
we don't need to acquire them; we can buy it as a service. 
Well, buying SATCOM as a service has been the responsibility of 
DISA [Defense Information Systems Agency], an entirely 
different organization, an entirely different chain of command, 
and an entirely different budget.
    When your organization is fractured like that, it is hard 
to make a good decision and be able to make adequate tradeoffs. 
And so that is why I think we see the military struggling with 
this analysis of alternatives. It is just the institutions that 
we built aren't fit for the needs that we have today.
    Mr. Carbajal. Thank you. And thank you, Mr. Chair, for the 
additional time.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here.
    And, Mr. Loverro, I listened closely to what you said about 
canceling a mission that they were--or a platform they were 
about to purchase in 2009, and here they are, they still 
haven't decided what they are going to use to replace the 
mission. The JSTARS [Joint Surveillance Target Attack Radar 
System] mission comes to mind as I listen to that. And as I 
look at us becoming more and more dependent on space, it seems 
to me that the acquisition process, the decision, if you will, 
becomes more complex and perhaps takes longer to actually field 
the items that we need than an airplane or a tank or something 
along those lines.
    But to read directly from your remarks, make no mistake in 
all three U.S.-based sectors, national security, civil, and 
commercial, the U.S. continues to lead the world. It talks 
about others catching us, but--so you say that we lead the 
world, but yet we are totally dependent upon the acquisition of 
Russian rockets to launch our space-based capabilities. And 
those two things seem to be in conflict with each other.
    How is it that we dominate, but we don't have the ability 
to launch our own capabilities? And if you were sitting in the 
Russians' shoes, wouldn't you simply take away that ability 
from the U.S. if you saw that they were about to launch a great 
system?
    Mr. Loverro. Sir, that is a very difficult question you 
have posed for me there. Number one, I don't think we should be 
dependent upon Russian rockets, and we could have made 
decisions way in the past to change that.
    Mr. Scott. Absolutely.
    Mr. Loverro. In fact, there was direction from three 
successive acquisition chiefs in the Pentagon to make that not 
happen and it was ignored, unfortunately, every time, starting 
as far back as 2004. That is a reliance that we should not have 
and we should correct that. And we are on the path to correct 
it, but we should have corrected it long ago.
    Number two, will the Russians go ahead and eliminate their 
provisions of those engines for strategic reasons? I don't know 
what is in their mind. I find it hard to understand----
    Mr. Scott. Do you agree that they could?
    Mr. Loverro. They could. And that is a vulnerability we 
can't stand.
    Mr. Scott. Sure.
    Mr. Loverro. We know how to build rocket engines in the 
United States of America. We built the most powerful rocket 
engines ever developed in the world in the United States of 
America. And we have, not only through NASA [National 
Aeronautics and Space Administration] and through the Air 
Force, but also through commercial world we have the most 
robust launch infrastructure of any nation in any time in 
history today. I really do want to salute the DOD for changing 
their tune on things like SpaceX, and I want to salute ULA 
[United Launch Alliance] for making the changes they have made.
    Mr. Scott. I am down to about 2 minutes. If I may, one of 
the things that has been talked about is the difficulty of 
defending our space-based capabilities, the jamming of 
equipment that is available, which is of serious concern to me, 
and the ability to break our communications if we become too 
dependent on space and don't have redundant communication 
systems. Where does that leave us? And how vulnerable do we 
become by becoming dependent with no redundant system to 
communicate without it?
    And it brings me to a question for you, General Kehler. If 
our space-based capabilities are attacked, can you speak to the 
ability to reconstitute those capabilities along with the 
anticipated timeline and what this would mean operationally for 
continued warfighting, assuming we have no redundancies?
    General Kehler. Yes. Well, you nailed it, I think. This is 
an architectural question. We can't be in a position where our 
forces can't operate without space. And by the way, I don't 
think we would be. What happens, though, is that it is like a 
time machine: The more space you take away, the farther back in 
time our forces go in terms of how they would operate. So I 
think we have some significant issues about connectivity for 
nuclear command and control and other things that rely very 
heavily on space. So we can't find ourselves in that position.
    Mr. Scott. As a general, if you are in a battle and you 
lose your space-based communications and you have no redundancy 
and you had to repair the space-based communications----
    General Kehler. We do not have the wherewithal today to 
quickly replenish in a significant way what we could lose in 
terms of a determined adversary attack on space.
    Mr. Scott. All right. My concern is that the battle would 
be over, and potentially the war, before we could ever get--I 
am out of time, Mr. Harrison.
    Mr. Chairman, I think he had a comment.
    The Chairman. Do you have something you want to add? I get 
more flexible as time goes on.
    Mr. Harrison. I will take advantage of that then.
    I would just add that we may not want to focus too much on 
rapid reconstitution. That is one way to improve mission 
assurance. But it is really--you know, if you think through it 
in a war crisis type exercise, it is only good for a limited 
set of circumstances. So depending on the type of attack, you 
may not want to reconstitute right away, because you would just 
be launching another billion dollar satellite that will just 
get destroyed again. Also, if it is--you know, you may have 
created a lot of debris, you might not want to launch into that 
orbit. But also, if it is a nonkinetic attack, particularly a 
reversible attack, like jamming, they are just going to jam 
that one as well.
    So I think what we really ought to be looking at, first and 
foremost, is how to avoid getting in that situation where we 
would need to reconstitute. How do we develop systems that 
degrade more gracefully? How do we develop systems that are 
just harder to attack, so that someone, instead of attacking in 
space, they will choose to attack in another domain, through 
another vector?
    The Chairman. Mr. Norcross.
    Mr. Norcross. Thank you, Mr. Chairman.
    Actually, I just want to expand on some of the discussion 
you just had. Over the last few years, our NATO [North Atlantic 
Treaty Organization] agreement started to address the cyber. It 
is not as clear; when soldier come at you, you know who it is. 
In space, you talked about the jamming issue.
    Let's talk about kinetic strikes. What is our ability to 
track where that attack came from, A, from the physical 
standpoint, and then who is controlling what happened? Oh, I am 
sorry, General.
    General Kehler. Sir, if I understand your question 
correctly, you are asking----
    Mr. Norcross. If there was an attack, physical attack in 
space on one of our assets.
    General Kehler. Right. Well, it is not nearly what it needs 
to be. We are very good at tracking rockets and missiles of 
certain classes and sizes that get launched from the face of 
the Earth. We are very good at that. Once things are on orbit, 
though, we have significant deficiencies in how quickly we can 
detect if something has maneuvered, how quickly we can detect 
that something might be approaching an asset of high value, and 
the list goes on.
    Mr. Norcross. In terms of tracking debris or satellites.
    General Kehler. Yep. And it is true across the board with 
debris or hostile actors or other satellites that happen to be 
up there. And this is why the--certainly, the military has been 
arguing for quite some time that we need to invest more in what 
they call space situational awareness. We need to get from a 
time where they are basically maintaining a catalog of what is 
up there and checking it periodically to see what changes, to 
real-time situational awareness like we would have in the air 
if we were in a conflict.
    Mr. Norcross. Funny you should mention that. We have an 
off-the-shelf piece that we have been discussing for a number 
of years. But that will show you where the asset is versus the 
other asset in terms of an actual attack.
    General Kehler. Right.
    Mr. Norcross. How do you track that?
    General Kehler. And then there is being able to track in 
sort of close proximity to one another and there is deciphering 
what actually happened to you, whether what happened is a 
technical problem or some hostile act. Those are all things 
that need to be worked, because we aren't nearly where we need 
to be in all of those areas.
    Mr. Norcross. In terms of debris. Debris is a relative 
term. Some accidental, some very deliberate. If there was an 
intentional--and this is under the guise that we are going to 
have a very bad day, but debris is probably one of the easiest 
things to put up there to disrupt us. Maneuverability is short 
term for our assets to get out of the way. How would you rate 
our ability to do that today?
    Mr. Loverro. Sir, I am going to--let me address the 
question in two ways. First of all, if you want to attack 
something in a military effective way, debris isn't a 
particularly good way to do it. Debris is a long-term problem, 
but not a short-term preferred method of attacking, because 
space--we don't understand how big space really is. So we could 
move out of the way of debris, we do it all the time. The space 
station does it all the time. Air Force Space Command tracks 
the debris and the space station maneuvers if it believes it is 
going to be too close. And we can do that for most of our 
satellites that are in a debris area, which are our low Earth 
satellites. Some of our older satellites, no, but most of our 
satellites that have been launched in the last 20 years could 
do that.
    The big problem is we--what might look like debris may 
actually be a deliberate attack. That is the harder problem to 
deal with. And some CubeSat that has minimal propulsion could 
easily go ahead and impact into a multibillion dollar satellite 
and destroy it, and that might just--and it would be very 
difficult for us to detect that movement and very difficult for 
us to attribute who caused that to occur.
    Mr. Harrison. I would add to that that part of the problem 
with debris is it has indiscriminate long-term effects, right? 
And so it is going to affect anyone in a similar orbital 
regime. You know, in terms of maneuverability, the real 
question is, you know, how feasible is it to maneuver out of 
the way of a homing warhead of some kind. So something that is 
not an unguided piece of debris, but something that is trying 
actively to steer its way into you. That is a very tough 
problem in physics because that warhead is small, the amount of 
propellant it needs to maneuver is exponentially smaller 
because of the weight. And it is willing to expend 100 percent 
of its propellant to hit you, whereas your satellite, you are 
large, you are lumbering, you are slow moving, you have limited 
propellant reserves on board and you do not want to expend much 
of that propellant because that will ultimately shorten the 
life of your system. So maneuverability in many cases is just 
not a feasible option against any kind of homing warhead.
    Mr. Norcross. Thank you. I will yield back.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    To all the panelists, in fiscal year 2018, Congress 
authorized advanced procurement for SBIRS [Space-Based Infrared 
System], space vehicle 7 and 8. However, the Air Force is no 
longer interested in procuring SV 7 and 8. Instead, the Air 
Force would like to disaggregate strategic and tactical 
payloads from one another. However, the Air Force is still 
planning to use the same spacecraft buses, the same, quote/
unquote, big, juicy targets, as General Hyten calls it.
    Does this approach initiate risk by cutting short the 
program of record, especially before it has reached full 
operational capability? Please explain why or why not.
    General, let's start with you.
    General Kehler. So, Congressman, here is where I would 
agree with them. I would agree that we should not continue to 
do business as usual. The alternative, though, I am not clear 
yet on whether the alternative is substantially a different 
approach. If it is, then I would support it. If it isn't, then 
I would continue to have the same question that General Hyten 
has.
    And so I would listen very carefully to kind of where the 
combatant commander comes out on this to assess whether he 
thinks his warfighting capabilities are being materially 
improved by an action that the service is taking. So they 
should be in lockstep on this, and I don't know if there is 
some issues about having to transition some way or I don't know 
what the other factors are that they considered. But I do agree 
that business as usual is not the way to go forward on that and 
other constellations as well, and they need to come up with 
alternative ways to make themselves more resilient and 
defensible.
    Mr. Coffman. Mr. Loverro.
    Mr. Loverro. Yes, sir. I agree wholeheartedly with General 
Kehler. First of all, I don't think we should build any more 
SBIRS. We have enough SBIRS and DSP [Defense Support Program] 
satellites to last us well to the end of the next decade. What 
we need to do is build a more resilient missile warning 
architecture than we have today. And as best I can tell from 
the budget documents, what has been specified is not any more 
resilient than what we have today. It may be new, but it is not 
more resilient because it is using the same bus, as you already 
stated. It still remains the big, juicy target that is going to 
still take 8 to 10 years to develop. That is unacceptable.
    We have alternatives today--they have been proven, they 
have been flown, they have been shown to be effective--that we 
could easily launch within 3 years, 5 years at the outside, 
given the budget process. And yet we sure have chosen not to do 
that because, as Mr. Harrison has said, culturally we don't 
think about the problem that way and they would be far more 
resilient than what we have today.
    Mr. Coffman. Mr. Harrison.
    Mr. Harrison. I would agree that I am not sold on the new 
path forward on SBIRS. I think disaggregating the strategic and 
tactical missions onto different satellites that are basically 
the same as what we have today, I don't think that that 
improves resilience or deterrence against an adversary because 
are they really going to believe what is on what satellite.
    I think we need to break up that mission, break it open, 
and look at it more broadly. And I think that there is a good 
case to be made for our tactical missile warning needs, that 
they could be better met in low Earth orbit with a large 
constellation of smaller satellites in low Earth orbit that are 
used not just for detection of a launch, but for tracking and 
target discrimination in midcourse.
    If you talk to folks in Missile Defense Agency, they will 
tell you that the single most important thing we could do to 
improve the effectiveness of our theater and national missile 
defense systems is better tracking and target discrimination in 
midcourse. That is what they need. We can do that with a 
constellation in low Earth orbit.
    Mr. Coffman. Would it be more prudent and responsible to 
incorporate a new start after seven and eight, to include the 
option of augmenting capabilities through a payload? I don't 
have a lot of time, but, General?
    General Kehler. It depends, I think, on how quickly and 
whether it is affordable and whether we have enough agility to 
actually make a big transition now. If you can, then I would 
transition. If you can't, then this is the first rule of wing 
walking, don't let go until you are holding on.
    Mr. Coffman. Okay.
    General Kehler. So we just want to make sure we are 
cautious about how we did it.
    Mr. Coffman. Mr. Loverro.
    Mr. Loverro. Sir, I do not believe that we should buy seven 
and eight under any conditions. It is the wrong strategic tool 
for our warfighters, and that should drive our thinking, not 
our fear of something new. And we know how to apply things 
better if we want to. We have got to go ahead and overcome that 
fear. And I am fully confident we have enough time, given the 
six SBIR satellites we have already bought and the classified 
number of DSP satellites that are still in operation.
    Mr. Coffman. Mr. Chairman, may I finish?
    Mr. Harrison, can you respond, quickly?
    Mr. Harrison. I would quickly add and say that I think in 
terms of the strategic missile warning mission, more payloads 
in more places is better. That will make us more resilient. So 
if we can take the payloads, similar to what is on our SBIR 
satellite, and put them just in more places, if we can host 
payloads, we have done the commercially hosted infrared payload 
experiment in the past, more of that will help make the system 
more resilient. So I think that would be a good use of funding.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, gentlemen, for being here. I 
appreciate all your expert testimony. And I used to work with 
General Kehler when I was the one-star at Offutt Air Force Base 
and he was the four-star STRATCOM commander. I have a funny 
memory I just have got to share real quick. My four-star boss 
was at Langley Air Force Base, Virginia, and I remember General 
Kehler saying, your dad may be at Langley, but I am your great 
uncle, and I talk to your dad all the time.
    General Kehler. I remember that.
    Mr. Bacon. So it is good to be with my great uncle here.
    So we look at having a new space force and having a debate. 
I think a couple of things we need to look at, one of them is 
acquisition and the decision-making process, as you say. I 
think Mike Rogers does a great job showing all the duplication 
that goes on there, a bunch of the services, and that there may 
be a--there has got to be a better way to do it. But the one 
that concerns me more is the culture and building of 
warfighting space culture. And when our space warfighter 
lieutenants come in and our airmen come in, I think we need to 
have that thought process that they are the very best. They can 
achieve service chief 35 years later.
    And I don't know that we can say that today with the Air 
Force. I think we have to be honest, it is a fighter pilot 
oriented culture, 80 percent anyway. I mean, we have bomber 
pilots and air lifters. But by and large, it is a fighter pilot 
culture. If you look at our service chiefs going back a couple 
decades, with maybe one exception, you know, it has been a 
fighter pilot. And I have got to tell you, General Goldfein is 
the best of the best. I think he is an outstanding leader. I 
think he is onto this problem too, how do we build a space 
warrior culture within the Air Force? The Navy has obviously 
done it. They have submariners, surface, aviators, all of them 
compete equally for that service chief's job or the CNO [Chief 
of Naval Operations] position.
    So my question to you three today would be, how does the 
Air Force work to getting a culture where the space and the air 
domain, the fighter pilot culture becomes equal? How do we 
change that to become more like what the Navy has today? Is it 
doable? And I will say I know General Goldfein is committed to 
this, but I think it is a hard task. And I embrace his desire, 
but how does this happen? And I turn the floor over to you.
    General Kehler. Congressman, I was really glad that this 
wasn't some retribution for me commenting about being your 
uncle.
    So first, I think I would ask myself, is it feasible? Is it 
feasible for the United States Air Force to do what it is that 
needs to be done? I am a non-pilot in the United States Air 
Force for 39 years. I believe it is feasible for the United 
States Air Force to do what needs to be done here. And I think 
what needs to be done is there needs to be a conscious effort 
to over-nurture space for a time until it gains that kind of 
traction that we are talking about here.
    I think that--and that is a step, by the way. It may be 
that we need to go to a separate space corps or a separate 
space force or something in the future, but those are really, 
really big steps that bring with them other things that we 
ought to think about carefully, I believe. I do think that the 
pieces are in place there today in the Air Force. We haven't 
sat there idly over the last 20 years. As a matter of fact, 
since Desert Shield and Desert Storm, there is a lot that has 
been done inside the Air Force.
    But what has not happened, I think, is that it has not 
gotten the consistent priority treatment that it needs, to 
include a management of personnel that makes non-aviators 
warfighters through the processes that the warfighters go 
through, that the aviators go through as well, similar 
processes to that. I think it is doable. I think it requires a 
deliberate action on the part of the Air Force. And I think it 
involves helping this hybrid command called Air Force Space 
Command that has the pieces that it needs to grow up some more 
too with some acquisition authorities and other things.
    So I think it is feasible. I think it is possible. In the 
near term, my preference would be to see that, because we have 
urgent matters that need to be solved. I would hold the people 
in those jobs accountable for solving them, instead of coming 
up with something new that could be a distraction. So I am not 
opposed, but I would be careful about how we go forward here.
    Mr. Bacon. Thank you, General Kehler. And I know General 
Goldfein is committed to that. I have talked to him personally.
    Mr. Loverro.
    Mr. Loverro. Yes, sir. So General Kehler and I have argued 
about this before, and it is a question of do you peel the 
Band-Aid off slowly or do you rip the Band-Aid off. I am ready 
to rip the Band-Aid off. The Air Force space corps needs an 
identifiable existence within the Air Force. Today, the Air 
Force space corps is made up of 2,000 individuals who are 
called space operators. They have a specific identification 
code. There are 2,000 of them, that is all there ever will be. 
You can't build the corps out of that.
    There are another 3,000 who use space acquisition who are 
not identified as space warriors who should be because they 
have the skills there that are distributed between the NRO 
[National Reconnaissance Office] and the Space and Missile 
Systems Center. There are another several hundred who are in 
space intelligence officers, space maintainers, space thinkers, 
all of--none of these people are identified as space people 
and, therefore, we cannot get to the requisite number of space 
smart folks who have the variety of those experiences necessary 
to build that space warrior in the future.
    The path that leads to a pilot doesn't include Wright-
Patterson Air Force Base. The path that leads to a space 
warrior probably does include the NRO and the Space and Missile 
Systems Center. There are two different paths. There are 
different kind of career progressions, and the Air Force is 
unable to go ahead and manage that within their current 
personnel system.
    Mr. Bacon. Thank you. I defer to the chairman if we get one 
more answer in. Thank you.
    Mr. Harrison. I would add one more thing. I think it 
actually is a larger issue than just space within the Air 
Force. I think it is a broader issue that Congress needs to 
address of DOPMA [Defense Officer Personnel Management Act] 
reform. And the personnel system overall needs to be updated, 
quite frankly, that some parts of the career model that were 
built in decades ago are no longer working very well. Things 
like the up-or-out promotion system and all of the joint 
service requirements and all the educational requirements that 
we put on folks. I think that is contributing to the pilot 
shortfall in the Air Force, quite frankly. I think it is also 
contributing to the lack of ability to create a viable space 
cadre within the Air Force. So I think this is a bigger 
personnel reform issue that I am hopeful Congress will tackle.
    Mr. Bacon. Thank you. And thank you, Mr. Chairman.
    General Kehler. Mr. Chairman, could I--I know that I am 
probably violating some terrible rule here. Could I just add 
one other thing?
    The Chairman. Of course.
    General Kehler. Five of the last four-star commanders of 
Air Force Space Command have been non-pilots. The other one was 
a pilot, but he was also a three-time shuttle pilot. He 
qualifies, as far as I am concerned. Anybody who has been a 
satellite I think is okay to command Air Force Space Command. 
Three of those six have become the commander of U.S. Strategic 
Command, the combatant commander. In the last couple of times 
that the Air Force has considered senior officers to be the 
chief of staff, I know that some of those officers were 
actively considered to be the chief of staff.
    So I think that to suggest that somehow that there has been 
no progress here is not a good way to think about this. I do 
think there are problems that need to be addressed. And I think 
that there are issues for the Air Force to address that have 
been laid out for quite some time that can be addressed. But I 
just wanted to point out that there are some things here that I 
think you should take note of.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Harrison, I would like to follow up on a comment you 
made that you are more concerned with the nonkinetic threats in 
space right now. I would like to expand a little bit more on 
that, specifically in regard to, is the concern that it is 
harder to attribute the attacks? Is it that it is harder for us 
to counter the attacks? Is it a threat to our satellites? All 
of the above or whatever? If you could just go further with it.
    Mr. Harrison. I am more concerned about the nonkinetic 
types of threats because I think they are harder to deter for a 
variety of reasons. And so when I say nonkinetic, I am talking 
about electronic forms of attack, like jamming or spoofing a 
signal where you fool a receiver into thinking, you know, what 
they are receiving is really from the satellite, when it is 
not. Also, nonkinetic forms of physical attack where you can do 
physical damage to the satellite without actually touching it, 
like lasing a satellite; lase an imagery satellite, you can 
potentially blind it or at least temporarily dazzle it. High-
power microwave weapons can cause the electronics on a 
satellite to be disrupted, cause computers to reboot, or can 
actually fry the circuits in a satellite if it is a strong 
enough attack and they are not well protected.
    Then, of course, there are cyberattacks. Cyberattacks can 
be many different forms. At the lowest level, someone could 
just get into your network and be able to snoop on packets, 
who's talking to whom. They may be able to crack into 
encryption and actually read the data and exploit that for 
military purposes. At the most extreme level of a cyberattack, 
they could get into your data streams and manipulate the data. 
Worst attack you can imagine would be if someone gets into your 
command and control uplink and takes control of your satellite, 
then they can effectively destroy it, at least make it not 
usable to you.
    Now, our military satellites have protections against some 
of these, but not all of these, and it varies by the type of 
system. And so, you know, I am concerned about these threats 
because, one, an adversary may think that they could use an 
attack that they don't think we can attribute to them and get 
away it. So they may use it even before a conflict on Earth 
begins. It may be part of their conditioning of us or trying to 
prepare the battlefield. Also, an adversary may use something 
like jamming that is a reversible form of attack. They may view 
it as being below threshold that they can do it and we will 
know that they can turn it off. And so they can just negotiate 
with us.
    We may not view it the same way. You know, our protected 
satellite communications systems, they are used for nuclear 
command and control as well as tactical missions. An adversary 
may miscalculate and they may think that we would, you know, 
view it as less below a threshold when we actually view it as 
being above a threshold.
    The other complication is that our allies and partners may 
not view the same type of attack the same way that we do. And 
so I know there are some ongoing discussions. I think there 
need to be more ongoing discussions, and it is at this lower 
end of spectrum of conflict where I think it gets very murky 
and that is when it concerns me. Not to discount the kinetic 
ASAT attacks; those, yes, have very devastating consequences, 
but I think we need more attention in the nonkinetic side.
    Mr. Hice. Mr. Loverro.
    Mr. Loverro. Yes. Mr. Hice, I want to add to what Mr. 
Harrison has said. And this is a critically important point. As 
we put together our policies and our thinking about resilience, 
one of the key goals was to force the--if the adversary wanted 
to take away your space capabilities, was to force him to a 
higher level of attack, i.e., kinetic attack, to take away the 
so-called cheap shot of a laser or a jamming attack, remove 
that from the thinking so that you would clearly have an act of 
war if he tried to attack your satellites.
    We know how to build jam-resistant satellites. We know how 
to build architectures of satellites that cannot be jammed 
individually or collectively. We know how to go ahead and build 
jam-resistant GPS. We know how to go ahead and build satellites 
that can't be blinded by lasers from the ground. We know how to 
do all of these things. We need to be doing them so that the 
only option an adversary has is to go ahead and attack us 
kinetically. And then we need to build architectures where the 
loss of a single satellite attack kinetically doesn't affect us 
militarily, but now gives the President the wherewithal to act. 
So these are critically important strategic, architectural 
questions that we have to address and we are not doing.
    Mr. Hice. So are there any policy decisions on our end that 
need to be implemented?
    Mr. Loverro. The policy that I just told you exists. It is 
written. It was delivered in 2014 to the White House as part of 
our overall ability to resist these--or to contend with these 
problems. We are not--we are not building the capabilities. 
There is always more policy work to be done--don't get me wrong 
there. You know, otherwise, I would be out of business. But the 
fact of the matter is the fundamental policies we need to 
understand what to do are there; we have to act on these 
policies.
    Mr. Hice. Okay. Thank you. I yield back, Mr. Chairman.
    The Chairman. Whose job is it to make those architectural 
decisions?
    Mr. Loverro. Sir, that is the key issue, and that is why I 
say it is not an acquisition issue; it is a decision issue. In 
the 20 years that spanned 1990 to 2010, we basically allowed 
that decision to be made by the acquisition chain in the AT&L 
[Acquisition, Technology and Logistics]. That was never that 
individual's job, but since nobody else would make a decision, 
he or she did. Before that, back in the 1960s and the 1970s, it 
was the responsibility of the DDR&E, the Deputy Director for 
Research and Engineering. In the 1980s, late 1980s and 1990s, 
it was the responsibility for the Assistant Secretary of 
Defense [ASD] for C-Cubed-I [Command, Control, Communications, 
and Intelligence (3CI)]. They were the person in the OSD 
[Office of the Secretary of Defense] staff who would listen to 
the services come in and say, we would like to seek to do this, 
and they would basically say yes or no.
    I often tell the tale that when I was running the GPS 
program and I didn't believe we were on the right path, I 
walked into John Stenbit's office, he was the ASD (3CI). I sat 
down with him for 3 days and explained what we need--we needed. 
He said, yes, you are right. Let's take it to the deputy. I was 
at the deputy's office a week later. In less than 2 months we 
had changed the entire course of the GPS program. Today, I 
would have to go talk to 20 different people in the Pentagon; 
none of them have the ability to go ahead and make that 
decision. That is the problem that we have to go ahead and 
solve.
    The Air Force, I believe, will come up with excellent ideas 
if we give them the responsibility to do that. And they should 
have the responsibility to do that, and then they should be 
responsible for bringing that to the individual in OSD who can 
say yes or no. And they either get a yes, or no, go back and 
work it again. But that will create the kind of pace of change 
that we need, rather than the current structure.
    Mr. Harrison. I would add to that that, you know, I would 
choose to interpret some recent changes that Congress made in a 
way. And I don't know that folks within the Pentagon would 
agree with this, but I think it was fiscal year 2017 NDAA 
[National Defense Authorization Act] that split up AT&L and 
gave more acquisition authority to the services. So the 
acquisition authority devolved to the services for many of 
these programs. And then in last year's fiscal year 2018 NDAA, 
it clearly gave the commander of Air Force Space Command the 
sole authority for recruit, training, equipping space forces.
    I would then interpret that as the commander of Air Force 
Space Command should be the one who can make these decisions 
and move out on it.
    General Kehler. He doesn't have all the authority he needs 
to do that. I mean, I take the point about the decision process 
and the acquisition process; to me it is kind of tomato, 
tomato. I think that there--this is all rolled together. What 
has happened with the fragmentation of acquisition in larger 
sense has impacted space as well.
    I agree. I think that the commander of Air Force Space 
Command has responsibility here to develop space architectures. 
I had that responsibility when I sat out there, and what I 
didn't have was the responsibility to develop the Department's 
communications architecture. I could do the space piece of it, 
but I didn't have the wherewithal to do the rest. That was 
somebody else's responsibility. And once I had what I thought I 
needed to do, my responsibility was to take it into the Air 
Force and get it programmed.
    So I think that channel is there. I think that channel is 
still there. Again, I think this is about priorities. If these 
are national priorities, then I think it gets looked at 
differently in the program process when we are trying to decide 
what to fund and what not to fund.
    The Chairman. Mr. Rogers.
    Mr. Rogers. I just want to again thank the panel. This is a 
very important discussion for us to have. I hope that people 
take away from this hearing that the one thing that came out 
early and has recurred throughout it and that is we can't keep 
doing what we have been doing. We have to do something 
dramatically different, better, more efficient, and more 
effective.
    As you all know, I believe that we have to segregate those 
5,000 people that Doug Loverro described into a separate 
service, the space force, in the Department of the Air Force in 
order to get that culture and educational system and career 
development that we need to make space a priority. And the 
point being, and one of the reasons why General Kehler and I 
kind of [diverge] on this, is I believe that in order for us to 
ever correct this, that the people that come to work every day 
and work on space have to know that it is their number one 
priority. It is the organization's number one priority. And the 
Air Force will always have air dominance as its number one 
priority culturally. And it should; it is the Air Force.
    So we just have to recognize no organization can have two 
number one priorities. And I think that is going to be the--
because General Kehler is right, it could possibly happen, but 
it is probably not going to happen. If it would have been 
likely, the Air Force would have done it by now. They are 
humans, and it is just hard to do what we are asking them to do 
in their current construct. And one evidence would be when you 
talked about the four-stars space professionals who were 
considered for chief, they didn't get chief.
    But you did make a point that I agree with that in the 
interim, between now and when I think we are going to have a 
space force, like our Commander in Chief said yesterday--I like 
him even better today--but between now and then, I think 
General Kehler is exactly right, the Department of the Air 
Force should make space a high, very high priority, and fund it 
appropriately and give it inordinate attention. That means 
resources, a different acquisition construct, and maybe a space 
professional as the next chief of staff, like John Hyten or 
somebody else. Those would be great signals to the Congress, 
they are finally getting it.
    But I still think we are going to have to make this 
evolution to a separate segregated service. And I think this 
hearing goes a long way to putting that information on the 
record, and I thank you all for being a part of it.
    I yield back.
    The Chairman. Last question, is there something that jumps 
to any of your minds that has been written in the last few 
years that, not technical, but would be helpful for Congress to 
read in thinking about space as a warfighting domain? I am just 
curious.
    Mr. Loverro. Sir, it is not the last few years, but it is 
2001, written by the Rumsfeld Commission. We all were part of 
it, at least I guess--I know General Kehler and I were part of 
it. I am not sure about Todd. But I don't think a more thorough 
description of the problem or the solution exists than that 
report. It is--it is prescient in its understanding of what was 
going to happen because everything it perceived to happen has 
happened. It spoke about the fact that we need to get on the 
path for a space corps then--now 19 years later, we are still 
not on that path--because it saw that the only way to go ahead 
and deal with this problem was to get on that path early.
    I still find it to be the bible for most of this thinking, 
and if you care to read all of the appendices, all of the 
details spring out at you. So I would heartily recommend a 
review of that report.
    General Kehler. I would agree there, there have been a lot 
of studies done. I think that is the best one, if you were 
parachuting in to take a look at this. I think that one, it 
sets the conditions, and I think it lays out the issues in a 
very, very good way.
    I would say, though, that some things have changed between 
then and now. I think the threat that got talked about there 
has arrived. And I think that we just need to be cautious here 
that in going forward--and by the way, I do not disagree that 
somebody should come to work every day thinking about space as 
a full-time job. That was my job, as a matter of fact, in Air 
Force Space Command. And I think that that is necessary. I do 
believe that there are things that have to be done here just 
like we have been talking about.
    What I am concerned about, though, is how far you go and 
how fast you get there, because my experience with major 
organizational changes is that they always take longer and cost 
more than we think. And so I don't think we have the luxury of 
a lot of time. I think we have people in place today who have 
organizations that can be responding and we need to make them 
do it.
    Mr. Harrison. One book that comes to mind is Crowded Orbits 
by Clay Moltz. I think that is a good reading and it is a 
little more contemporaneous. I also agree, though, that the 
Rumsfeld Commission report is a great read, especially when it 
comes to the organizational aspects that we have discussed much 
today. And as someone who writes and publishes for a living, I 
can't miss the opportunity to promote one of my own reports, 
but we published a report last fall called ``Escalation and 
Deterrence in the Second Space Age.'' So if you don't have a 
copy, we will be glad to get you one.
    The Chairman. I appreciate that.
    I think just like in cyber, there are elements of this--of 
space as a warfighting domain that are challenging for members 
to think about. Because while you can draw analogies to 
underwater and other things, there are differences. And so that 
is part of the reason I asked the question.
    I think this has been very helpful today. I thank each of 
you for being here.
    The hearing stands adjourned.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 14, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 14, 2018

=======================================================================

  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 14, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. What structural changes would you recommend be made to 
how we organize for joint space warfighting in the future?
    General Kehler. [The information was not available at the time of 
printing.]
    Mr. Rogers. As you know, we dissolved the PDSA last year and the 
Deputy Secretary of Defense has retained those authorities. I know we 
also have an OSD office that has space policy. But where is the broader 
space policy and budget oversight in the Department of Defense 
currently? And where should it be?
    Mr. Loverro. [The information was not available at the time of 
printing.]
    Mr. Rogers. One of the issues that I have had with demonstrating 
how seriously we take space is that a significant portion of the budget 
for space is classified. Should we reconsider how much of that budget 
is unclassified to be more accountable and perhaps even to message our 
adversaries?
    Mr. Loverro. [The information was not available at the time of 
printing.]
    Mr. Rogers. Which programs seem to be the most egregious in space 
acquisition failures? What is the common denominator in these programs?
    Mr. Harrison. [The information was not available at the time of 
printing.]
    Mr. Rogers. What do you believe is the root cause for these space 
acquisition failures? GAO has repeatedly said it was fragmented 
leadership decision making?
    Mr. Harrison. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. What does the recruiting and training pipeline look 
like for space operators?
    General Kehler. [The information was not available at the time of 
printing.]
    Mr. Larsen. What sort of personnel capabilities/qualifications are 
needed and how will they be acquired/reorganized? (E.g. test pilots, 
space acquisition professionals, satellite communications specialists.)
    Mr. Loverro. [The information was not available at the time of 
printing.]
    Mr. Larsen. What does a career path look like for a space 
warfighter?
    Mr. Harrison. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Last year's NDAA FY18 Conference Report terminated the 
position and office of the Principal Department of Defense Space 
Advisor (PDSA) and transferred duties, responsibilities, and personnel 
to a single official selected by the Deputy Secretary of Defense. How 
does this new change impact the Air Force, the Department, and our 
readiness in the space warfighting domain?
    General Kehler. [The information was not available at the time of 
printing.]
    Mr. Turner. In the past year you've made statements stating that 
creating a new service, for space, would not fix but instead distract 
us from resolving issues with acquisition. Recently we have received 
the DSD's Space Organization Interim Report which highlights 
acquisition as a major focus in order for us to move at the speed of 
relevance with incorporating innovation into the space acquisition 
process. How important do you think the final report will be in 
relation to deciding the direction of our space program and other 
relevant decision making?
    General Kehler. [The information was not available at the time of 
printing.]
    Mr. Turner. As you have also noted in your publications, the NDAA 
FY18 conference report eliminates the PDSA, the Defense Space Council, 
and the newly created A11 and replaces them with a single official 
selected by the Deputy Secretary of Defense. Does that change reduce 
administrative burdens or increase them given the new change in 
direction?
    Mr. Harrison. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. The space launch industry is innovating in some pretty 
incredible ways that could increase capability and reduce costs. 
Reusability of rockets is one example, with all U.S. launch providers 
moving toward reusable launch vehicles in some way. SpaceX has already 
launched 9 previously flown rockets, including for NASA. How can the 
Air Force plan to integrate reusability into its launch program?
    General Kehler. [The information was not available at the time of 
printing.]
    Mr. Banks. Our adversaries in space are aggressively pursuing 
technologies and capability to exceed U.S. capability. What steps is 
the Air Force taking to move more quickly to work with the private 
sector to win this contest? We hear that things are at the working 
level, like procurement timetables and certification activities in 
launch continue to be painfully slow. How can DOD best address this?
    General Kehler. [The information was not available at the time of 
printing.]
    Mr. Banks. The space launch industry is innovating in some pretty 
incredible ways that could increase capability and reduce costs. 
Reusability of rockets is one example, with all U.S. launch providers 
moving toward reusable launch vehicles in some way. SpaceX has already 
launched 9 previously flown rockets, including for NASA. How can the 
Air Force plan to integrate reusability into its launch program?
    Mr. Loverro. [The information was not available at the time of 
printing.]
    Mr. Banks. Our adversaries in space are aggressively pursuing 
technologies and capability to exceed U.S. capability. What steps is 
the Air Force taking to move more quickly to work with the private 
sector to win this contest? We hear that things are at the working 
level, like procurement timetables and certification activities in 
launch continue to be painfully slow. How can DOD best address this?
    Mr. Loverro. [The information was not available at the time of 
printing.]

                                  [all]
</pre></body></html>
